                                        SOCIAL SECURITY
MEMORANDUM

Date:      July 2, 2008                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)


           The attached final report presents the results of our audit. Our objective was to quantify
           the savings achieved as a result of the suspension of monthly Title II benefits to fugitive
           felons and probation or parole violators.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                                   Patrick P. O’Carroll, Jr.
           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


         TITLE II BENEFITS
     TO FUGITIVE FELONS AND
 PROBATION OR PAROLE VIOLATORS

     July 2008   A-01-07-17039




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                  Executive Summary
OBJECTIVE
Our objective was to quantify the savings achieved as a result of the suspension of
monthly Title II benefits to fugitive felons and probation or parole violators. (Throughout
this report, we use the term “fugitive felons” to include probation or parole violators as
well as fugitive felons.)

BACKGROUND
Beginning January 1, 2005, the Social Security Act prohibits the payment of Title II
benefits to a beneficiary who is fleeing (for a period of more than 30 days) to avoid
prosecution, custody, or confinement for a felony—and to a beneficiary who is violating
a condition of probation or parole—unless the Agency determines that good cause
exists for paying such benefits.

SSA interprets the law to mean that a person is “fleeing to avoid prosecution, custody,
or confinement” when a person has an outstanding warrant for his or her arrest, even if
that person is unaware of that warrant. However, the United States Second Circuit
Court of Appeals, ruling in the case of Fowlkes v. Adamec, held the term “fleeing” to
mean “the conscious evasion of arrest or prosecution,” and that SSA could not conclude
from the mere fact that an outstanding felony arrest warrant exists that an individual is
“fleeing.” As a result of the Fowlkes decision, SSA issued an acquiescence ruling
and—beginning in December 2005—the Agency no longer suspended Title II payments
to fugitive felons (not including probation or parole violators) residing in the Second
Circuit.

RESULTS OF REVIEW
As a result of the suspension of benefits to fugitive felons, we estimate SSA saved the
Title II program about $404.3 million through March 2008. This includes
(1) $47.3 million in fugitive felon overpayments that were recovered; (2) $218.6 million
in ongoing monthly benefits that were withheld from the fugitive felons while their
warrants remained unsatisfied; and (3) $138.4 million in ongoing monthly benefits that
were withheld from beneficiaries while they were incarcerated following their
apprehension.

Also, we estimate that SSA had the potential to save an additional $249.6 million as of
March 2008. This includes (1) $89.5 million in benefits that will likely be withheld over
the next 12 months from beneficiaries whose warrants remain unsatisfied and
(2) $160.1 million in overpayments that had not yet been recovered from the fugitive
felons. Finally, we estimate that SSA did not save approximately $60.3 million. This
includes (1) $41.8 million in overpayments that were waived or deemed uncollectible
and (2) $18.5 million that was paid to beneficiaries with outstanding felony warrants that
will not be recovered because of the Fowlkes Ruling.



Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)        i
                                                                        Table of Contents
                                                                                                                   Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Sample Results ....................................................................................................... 4

    •    Overpayments to Fugitive Felons ................................................................. 4

    •    Undetected Overpayments ........................................................................... 4

    •    Program Savings Resulting From Suspension of Benefits to
         Fugitive Felons ............................................................................................. 5

    •    Offenses Committed by the Fugitive Felons ................................................. 6

    •    Benefit Status as of March 2008................................................................... 7

The Impact of the Fowlkes Acquiescence Ruling .................................................... 8

    •    Program Savings Not Realized Because of Fowlkes Ruling ........................ 9

    •    Offenses Committed by the Fugitive Felons ................................................. 9

CONCLUSIONS .................................................................................................... 10

APPENDICES

APPENDIX A – Additional Background Information

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Reasons Why Sample Fugitive Felon Cases Did Not
             Result in the Suspension of Title II Benefits

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)
                                                                            Introduction
OBJECTIVE
Our objective was to quantify the savings achieved as a result of the suspension of
monthly Title II benefits to fugitive felons and probation or parole violators. (Throughout
this report, we use the term “fugitive felons” to include probation or parole violators as
well as fugitive felons.)

BACKGROUND
The Social Security Administration (SSA) administers the Old Age, Survivors and
Disability Insurance Program under Title II of the Social Security Act. 1 The program
provides monthly benefits to retired or disabled workers and their families and to
survivors of deceased workers.

Beginning January 1, 2005, the Social Security Act prohibits the payment of Title II
benefits to a beneficiary who is fleeing (for a period of more than 30 days) to avoid
prosecution, custody, or confinement for a felony—and to a beneficiary who is violating
a condition of probation or parole—unless the Agency determines that good cause
exists for paying such benefits. 2

SSA interprets the law to mean “. . . that a person is ‘fleeing to avoid prosecution,
custody, or confinement’ when a person has an outstanding warrant for his or her
arrest, even if that person is unaware of that warrant.” 3 Before SSA takes action to
suspend benefit payments, it sends the beneficiary a notice about the warrant
information the Agency has received and the impact it may have on benefit payments.
The notice also advises the beneficiary of his or her rights to file an appeal or request a
waiver. Finally, the letter informs the beneficiary of the conditions that must be met for
the Agency to find that there is “good cause” to continue the benefit payments. 4




1
    The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
  The Social Security Act § 202(x)(1)(A)(iv)-(v), 42 U.S.C. § 402(x)(1)(A)(iv)-(v), as amended by § 203 of
the Social Security Protection Act of 2004 (Pub. L. No. 108-203, March 2, 2004).
3
 Social Security Acquiescence Ruling 06-1(2), Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005):
Determining Whether an Individual Is a Fugitive Felon Under the Social Security Act (Act)—Titles II and
XVI of the Act, Federal Register, Vol. 71, No. 66, at page 17551 (April 6, 2006); See also SSA, Program
Operations Manual System (POMS), GN 02613.001.B.3.
4
 There are two types of good cause—mandatory and discretionary. For more information, see
Appendix A.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                       1
In December 2005, the United States Second Circuit Court of Appeals, ruling in the
case of Fowlkes v. Adamec, rejected SSA’s interpretation of the law and the Agency’s
implementing regulations. 5 The Court held the term “fleeing” to mean “the conscious
evasion of arrest or prosecution,” and that SSA could not conclude from the mere fact
that an outstanding felony arrest warrant exists that an individual is “fleeing.” 6 As a
result of the Fowlkes decision, SSA issued an acquiescence ruling and—beginning in
December 2005—the Agency no longer suspended Title II payments to fugitive felons
residing in the Second Circuit, which includes Connecticut, New York, or Vermont. 7
(For additional background information, see Appendix A.)

To accomplish our objective, we obtained a file of fugitive felon records from the Office
of the Inspector General, Office of Investigations, in October 2006 and identified
219,635 records with warrants and whose Social Security numbers appeared on Title II
benefit records. We randomly selected 275 individuals from this population for detailed
analysis. (See Appendix B for more information on our scope, methodology and sample
results.)




5
    Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005).
6
    432 F.3d at 96.
7
 Social Security Acquiescence Ruling 06-1(2), Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005):
Determining Whether an Individual Is a Fugitive Felon Under the Social Security Act (Act)—Titles II and
XVI of the Act, Federal Register, Vol. 71, No. 66, at page 17551 (April 6, 2006). The Fowlkes decision
does not apply to probation and parole violators.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                    2
                                                         Results of Review
As a result of the suspension of benefits to the fugitive felons in our audit, we estimate
SSA saved the Title II program about $404.3 million from January 1, 2005 through
March 2008. This includes:
         $47.3 million in benefit overpayments that were recovered from the fugitive
          felons;
         $218.6 million in ongoing monthly benefits that were withheld from the fugitive
          felons while their warrants remained unsatisfied; and
         $138.4 million in ongoing monthly benefits that were withheld from beneficiaries
          while they were incarcerated following their apprehension.

In addition, we estimate that SSA had the potential to save an additional $249.6 million
as of March 2008. This includes:
         $89.5 million in benefits that will likely be withheld over the next 12 months from
          beneficiaries whose warrants remain unsatisfied and
         $160.1 million in benefit overpayments that had not yet been recovered from the
          fugitive felons. 8

Finally, we estimate that SSA did not save/recover approximately $60.3 million. This
includes:
         $41.8 million in benefit overpayments that were not recovered because the
          Agency granted the beneficiaries waivers or deemed their overpayments
          uncollectible and
         $18.5 million that was paid to beneficiaries with outstanding felony warrants but
          SSA will not recover because of SSA’s Acquiescence Ruling based on the
          Fowlkes decision.




8
    SSA may later waive some of these overpayments or deem them uncollectible.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)          3
SAMPLE RESULTS
Of the 275 fugitive felons we sampled,
        208 were not affected by the Title II fugitive felon nonpayment provisions (see
         Appendix C for additional details about these cases);
        61 had their Title II benefits suspended and/or overpayments assessed because
         of their unsatisfied warrants; 9 and
        6 continued to be paid their Title II benefits because SSA found that there was
         good cause to continue their payments. 10

OVERPAYMENTS TO FUGITIVE FELONS

In total, 60 fugitive felons in our sample were paid $312,019 that they should not have
received because of their unsatisfied warrants. Projecting the results to our population,
we estimate that approximately 47,920 beneficiaries were overpaid about
$249.2 million. The following table summarizes the status of these overpayments as of
March 2008.

                                                 Table 1
                                                                                          Population
               Overpayments                      Sample Results          Percent
                                                                                           Estimate
Recovered                                              $59,174            19.0%            $47,260,285
Not Yet Recovered                                    $200,493             64.2%          $160,128,347
Written Off (waived or deemed uncollectible)          $52,352             16.8%            $41,812,434
     Total Overpayments                              $312,019            100.0%          $249,201,066

UNDETECTED OVERPAYMENTS

We found that 60 fugitive felons in our sample were overpaid $312,019 because they
had unsatisfied warrants. 11 However, of this amount, $98,728 (or 32 percent) in
overpayments to 10 beneficiaries went undetected until our audit. Projecting these
results to our population, we estimate that approximately $78.9 million in overpayments
to about 7,987 fugitive felons went undetected by SSA.


9
  Of these 61 cases, 60 had overpayments due to their fugitive felon suspension and only 1 case was not
overpaid, but benefits were stopped because the individual had an unsatisfied warrant.
10
  This included three cases in which benefits continued because discretionary good cause was found by
SSA. This also included three cases in which benefits continued because mandatory good cause was
found. We did not identify any fugitive felons in our sample who requested—but were denied—benefit
continuation under the good cause provisions. (For additional information on good cause, see
Appendix A.)
11
   These fugitive felons were overpaid for an average period of 8 months. This includes 48 beneficiaries
from the disability trust fund and 12 beneficiaries from the retirement/survivor trust fund.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                     4
Overpayments occurred in several cases because of limitations in SSA’s computer
systems. 12 To identify fugitive felons who are receiving Title II benefits, the Agency
compares warrant information in its fugitive felon control file to the benefit rolls.
However, until August 2007, the system did not match warrant records against the Title
II claims system to detect benefit applicants with unsatisfied warrants. 13 As a result,
several individuals in our sample received benefit payments for which they were not
eligible.

For example, in September 2006, SSA was notified of a warrant for one individual in our
sample who was wanted for a drug-related offense. However, the individual’s benefit
application was pending at that time. When SSA finished processing the application in
November 2006, the individual was not recognized as a fugitive felon and payments
were initiated. In total, he received $9,498 that he was not eligible to receive because
of his unsatisfied warrant.

PROGRAM SAVINGS RESULTING FROM SUSPENSION OF BENEFITS TO
FUGITIVE FELONS

We estimate SSA saved an additional $273,689 by withholding the ongoing benefits to
35 of the 61 beneficiaries while their warrants remained unsatisfied (for an average
period of 12 months). Projecting these results to the population, we estimate SSA
saved approximately $218.6 million by withholding the ongoing benefits to about
27,954 beneficiaries.

For example, a warrant was issued in November 2002 for a beneficiary who was
wanted for drug charges. The Agency suspended benefits in October 2005 and
recorded an overpayment of $11,302. SSA continued to withhold the ongoing monthly
benefits until the warrant was dismissed in November 2006—saving $15,253 in Title II
program funds.

The table below summarizes the number of months that the 61 beneficiaries in our
sample were not due Title II benefits because their warrants remained unsatisfied.




12
  For other cases, the overpayments were not detected for various reasons. (For example, in one case,
the warrant could not be verified by law enforcement previously, but was verified when we conducted our
review.) We plan to conduct additional work in Fiscal Year 2009 on the systems issue.
13
  In June 2008, SSA informed us that operating instructions were never published for this process.
Furthermore, SSA determined that it did not have the legal authority to match warrant data with its Title II
claims system. The terms of SSA’s matching agreements with the law enforcement agencies specify that
the information can only be matched against those individuals who are already entitled to benefits.
Additionally, the Agency indicated to us that only a limited number of cases would be identified.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                     5
                                              Table 2
                    Total Number of Months the
                                                    Number of
                        Warrants Remained                                 Percent
                                        14         Beneficiaries
                            Unsatisfied
                     3 months or fewer                  13                  21%
                     4 to 6 months                       9                  15%
                     7 to 9 months                       5                   8%
                     10 to 12 months                    10                  16%
                     13 to 15 months                     7                  12%
                     16 to 18 months                     0                   0%
                     19 to 21 months                     3                   5%
                     22 to 24 months                     2                   3%
                     More than 24 months                12                  20%
                      Total                             61                 100%

SSA assists law enforcement agencies in their efforts to locate and apprehend fugitive
felons by sharing beneficiary address information with them. Of the 61 beneficiaries in
our sample whose benefits were suspended because of their outstanding warrants,
15 of them were subsequently apprehended and incarcerated. SSA saved about
$173,293 by withholding the benefits to these beneficiaries while they were prisoners
(for an average period of 14 months). Projecting these results to the population, we
estimate that SSA saved the Title II program approximately $138.4 million by
withholding the benefits to about 11,980 beneficiaries while they were imprisoned.

OFFENSES COMMITTED BY THE FUGITIVE FELONS

The fugitive felons in our sample who were not due Title II benefits were wanted for
various crimes, including larceny, fraud and drug-related offenses. The table below
summarizes the types of offenses for which the fugitive felon beneficiaries in our sample
were wanted.




14
     The average period was 12 months, the median period was 10 months.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)    6
                                                    Table 3
                                               15
                                     Offense                                   Number of Beneficiaries
                                     16
     Parole or Probation Violation                                                     28 (46 percent)
                                                     17
     Other Non-Violent, Non-Drug-Related Offenses                                      17 (28 percent)
     Drugs                                                                             12 (20 percent)
     Violent Offenses (includes Rape, Robbery, and Assault)                             4 (6 percent)
         Total                                                                        61 (100 percent)

BENEFIT STATUS AS OF MARCH 2008

Although SSA achieved program savings by suspending Title II benefits to fugitive
felons, we found that 34 of the 61 fugitive felons—who were previously not due
benefits—satisfied their warrants and were receiving monthly benefits as of
March 2008. Projecting our sample results to the population, we estimate that
27,155 fugitive felons (whose benefits were previously suspended) satisfied their
warrants and were again receiving benefits as of March 2008. The table below
summarizes the Title II benefit status of the 61 beneficiaries in our sample for whom
benefit suspension occurred because of the outstanding warrants.

                                                  Table 4
                   Title II Benefit Status as of March 2008                         Number of Beneficiaries
Beneficiary satisfied the warrant and SSA resumed paying benefits                       34 (56 percent)
Beneficiary was still not due benefits because the warrant remained
                                                                                          14 (23 percent)
  unsatisfied
Beneficiary was not due benefits because he or she was in prison                            7 (11 percent)
Beneficiary was no longer entitled to benefits regardless of the warrant
         18                                                                                 6 (10 percent)
  status
    Total                                                                                61 (100 percent)

As shown in the table above, 14 of the 61 beneficiaries had not satisfied their warrants
and therefore continued to have their benefits suspended. As of March 2008, their
warrants were outstanding for an average period of 33 months. If their warrants remain
unsatisfied, we estimate SSA will save about $112,121 over the next 12 months by
continuing to withhold the ongoing monthly benefits. Projecting these results to the


15
     We grouped offenses into violent and non-violent categories per POMS GN 02613.900.
16
  We were able to determine the underlying offenses for all 28 fugitive felons. The underlying offense
(category) for these 28 fugitive felons is as follows: 21 were “Other Non-Violent, Non-Drug Related
Offenses; 3 were “Violent Offenses”; and 4 were “Drugs.”
17
   This includes burglary, larceny, forgery, counterfeiting, fraud, stolen property, contempt of court, failure
to appear, driving under the influence of liquor and other traffic offenses, and weapons offenses.
18
  This includes three beneficiaries who died; two beneficiaries who attained age 18 and were no longer
entitled to child benefits; and one who was no longer considered disabled.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                        7
population, we estimate SSA will save about $89.5 million over the next year by
withholding the recurring benefits to approximately 11,181 fugitive felon beneficiaries
whose warrants remained unsatisfied as of March 2008.

For example, in May 2005, a warrant was issued for a beneficiary in our sample who
was wanted for possession of cocaine. SSA suspended Title II benefit payments in
November 2005 and recorded an overpayment of $2,076. By suspending the ongoing
benefits to this fugitive felon, the Agency had saved the Title II program $10,706 as of
March 2008. If the warrant remains unsatisfied, we estimate SSA will save an
additional $4,596 over the course of a year.

THE IMPACT OF THE FOWLKES ACQUIESCENCE RULING
Beginning December 6, 2005, as a result of SSA’s Fowlkes Acquiescence Ruling, the
Agency does not withhold Title II benefits from individuals who have unsatisfied felony
warrants and reside in the Second Circuit (this does not include probation or parole
violators). Beneficiaries whose benefits had been withheld on this basis must request
that SSA resume their benefits. 19 In July 2007, the Agency mailed notices to these
beneficiaries advising them of the Fowlkes Ruling and informing them of how to request
relief.

To evaluate the impact of the Fowlkes Ruling on the Title II program, we identified
8,980 fugitive felons with warrants as of June 2007 who may have resided in the
Second Circuit. 20 We randomly selected 275 fugitive felons from this population for
further analysis.

Of these 275 fugitive felons:
         234 were not affected by the Fowlkes Ruling; 21
         35 were considered eligible for the benefits that were paid to them—despite their
          outstanding warrants—because of the Fowlkes Ruling;
         6 had their Title II benefits suspended because of their outstanding felony
          warrants but did not request that SSA resume their benefits under the Fowlkes
          Ruling.




19
 Some beneficiaries do not need to request the application of the Fowlkes Ruling. See POMS,
GN 02613.810.A.2 and GN 03501.015.B.2.
20
     For additional information about our Fowlkes population, see Appendix B.
21
  For example, the fugitive felons were not eligible for Title II benefits when their warrants were
outstanding, or they satisfied their warrants before December 2005.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                8
PROGRAM SAVINGS NOT REALIZED BECAUSE OF FOWLKES RULING

Because of the Fowlkes Ruling, 35 beneficiaries in our sample were eligible to receive
their Title II benefits despite their unsatisfied felony warrants. 22 These fugitive felons
were paid $565,879 in Title II benefits that they would not have been eligible to receive
were it not for the Fowlkes Ruling. Projecting our sample results to the population, we
estimate that about 1,143 fugitive felon beneficiaries in the Second Circuit were paid
approximately $18.5 million in Title II benefits despite their outstanding felony warrants.

For example, a warrant was issued in November 2005 for a beneficiary in our sample
who was wanted for sexual assault. The beneficiary lived in New York, and the warrant
remained unsatisfied as of March 2008. Because of the Fowlkes Ruling, SSA did not
suspend benefit payments to this individual. As of March 2008, this fugitive felon
received $29,400 in benefits that would not have been due him had he not resided in
the Second Circuit. Further, we estimate this fugitive felon will receive an additional
$13,032 in benefits over the next 12 months.

OFFENSES COMMITTED BY THE FUGITIVE FELONS

In total, 11 of the 35 fugitive felons in our sample who—because of the Fowlkes
Ruling—were eligible for Title II benefits despite their outstanding warrants were wanted
for violent or drug-related offenses. The table below summarizes the types of offenses
for which the fugitive felon beneficiaries in our sample were wanted.

                                                  Table 5
                                 Offense                                        Number of Beneficiaries
                                                 23
Other Non-Violent, Non-Drug-Related Offenses                                            22 (63 percent)
Drugs                                                                                    7 (20 percent)
Violent Offenses (Sexual Assault, Robbery and Assault)                                   4 (11 percent)
Unknown (not provided by law enforcement)                                                2 (6 percent)
     Total                                                                             35 (100 percent)




22
  This includes 29 fugitive felons who were living in New York, 5 living in Connecticut and 1 living in
Vermont. The Fowlkes decision does not apply to probation or parole violators.

23
  This includes arson; burglary; larceny; stolen or damaged property; forgery; non-violent sex offenses;
non-support of parent and other family offenses; witness tampering; escape; failure to appear; and driving
under the influence of alcohol.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                    9
                                                                      Conclusions
We estimate that SSA saved the Title II program over $400 million as a result of the
suspension of benefits to fugitive felons. This demonstrates that SSA is addressing
improper payments. It also shows SSA’s efforts to address its stewardship
responsibilities—ensuring that only individuals eligible for benefits receive them.

AGENCY COMMENTS
SSA provided us with some information to clarify its fugitive felon matching process,
which we incorporated into the report. (See Appendix D for SSA’s comments.)




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)   10
                                              Appendices




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)
                                                                                            Appendix A

Additional Background Information
The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 precluded
eligibility for Supplemental Security Income (SSI) payments for certain fugitive felons
effective August 1996. 1 An individual receiving SSI and Title II concurrently continued
to receive the Title II benefits even though the SSI payments were suspended.

The Social Security Protection Act of 2004 extended the fugitive felon nonpayment
provision to Title II beneficiaries beginning January 1, 2005. 2 This law made persons
ineligible to receive Title II benefits during any month in which they were fleeing to avoid
prosecution, custody, or confinement for felonies or violating a condition of probation or
parole under Federal or State law.

The Social Security Administration (SSA) considers a person to be “fleeing to avoid
prosecution, custody, or confinement” when that person has an outstanding warrant for
his or her arrest, even if he or she is unaware of the warrant. 3 However, under the
authority granted in the law, SSA will continue payments to beneficiaries who have
unsatisfied warrants if “good cause” exists to do so.

Before SSA takes action to suspend benefit payments, it sends the beneficiary a notice
about the warrant information the Agency has received and the impact it may have on
benefit payments. The notice also advises the beneficiary of his or her rights to file an
appeal or request a waiver. Finally, the letter informs the beneficiary of the conditions
that must be met for the Agency to find that there is “good cause” to continue the benefit
payments. Good cause may be either mandatory or discretionary. 4




1
  Pub. L. No. 104-193, § 202. We issued our audit report, Assessment of the Supplemental Security
Income Fugitive Felon Project (A-01-03-23070), in September 2003.
2
    Pub. L. No. 108-203, § 203.
3
 Social Security Acquiescence Ruling 06-1(2), Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005):
Determining Whether an Individual Is a Fugitive Felon Under the Social Security Act (Act)—Titles II and
XVI of the Act, Federal Register, Vol. 71, No. 66, at page 17551 (April 6, 2006).
4
    Section 202(x)(1)(B)(iii) & (iv) of the Social Security Act, 42 U.S.C. § 402(x)(1)(B)(iii) & (iv).


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)                   A-1
MANDATORY GOOD CAUSE

The Agency shall determine that mandatory good cause exists and continue benefit
payments if:

         a court of competent jurisdiction found the person not guilty, dismissed the
          charges, vacated the warrant for arrest, or issued any similar exonerating order;
          or
         the individual was erroneously implicated in the criminal offense because of
          identity fraud.

DISCRETIONARY GOOD CAUSE

The Agency may determine that discretionary good cause exists and continue benefit
payments if (1) the criminal offense was non-violent and not drug-related, and in the
case of probation or parole violators, both the violation and the underlying offense were
non-violent and not drug related, and (2) mitigating factors exist.

The Agency has set forth a list of mitigating factors to meet this criteria that have been
divided into Option A or Option B. 5 For a finding of good cause in these circumstances,
all of the factors in either Option A or Option B must be met.

Option A:

         The criminal offense or probation or parole violation on which the beneficiary was
          charged or convicted was non-violent and not drug related. For a probation or
          parole violation the original offense was also non-violent and not drug related;
          and
         The beneficiary was not convicted of any subsequent felony crimes since the
          warrant was issued; and
         The law enforcement agency that issued the warrant reports that it will not
          extradite the fugitive felon or is unwilling to act on the warrant.




5
    SSA, POMS GN 02613.025.B.2.a & b.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)   A-2
Option B:

      The criminal offense or probation or parole violation on which the beneficiary was
       charged or convicted was non-violent and not drug related. For a probation or
       parole violation the original offense was also non-violent and not drug related;
       and
      The beneficiary was not convicted of any subsequent felony crimes since the
       warrant was issued; and
      The warrant is/was the only existing warrant and was issued 10 or more years
       prior to the date the Fugitive Felon Match processed the current warrant
       information; and
      The beneficiary:
            lacks the mental capacity to resolve a warrant, or
            is incapable of managing payments, or
            is legally incompetent, or
            has a representative payee, or
            is residing in a long-term care facility.




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)   A-3
                                                                                 Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we:
       Researched the Social Security Act and the Social Security Administration’s
        (SSA) regulations, policies and procedures related to the payment of Title II
        benefits to fugitive felons.
       Obtained a file of fugitive felon records from the Office of the Inspector General,
        Office of Investigations in October 2006 and identified 219,635 records with
        warrants and whose Social Security numbers appeared on Title II benefit
        records. 1 We randomly selected 275 individuals from this population for detailed
        analysis. Specifically, we:
         calculated the overpayments that resulted from fugitive felon ineligibility and
         estimated the savings to the Title II program that resulted from the continued
          suspension of benefits to individuals with unsatisfied warrants.

We conducted our audit in Boston, Massachusetts, between July and November 2007.
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The entities audited were SSA’s field offices under the Deputy
Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

Table 1: Population and sample size
Population Size                                                                             219,635
Sample Size                                                                                     275




1
 SSA receives warrant information from the Federal Bureau of Investigation’s National Crime Information
Center and the United States Marshals Service, as well as 17 States and 3 municipalities.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)              B-1
Table 2: Beneficiaries who were not eligible for the
                                                                 Number of
Title II benefits that were paid to them because of                                      Dollars
                                                                Beneficiaries
their warrants
Sample Results                                                            60               $312,019
Point Estimate                                                        47,920        $249,201,066
Projection Lower Limit                                                39,060        $175,939,457
Projection Upper Limit                                                57,791        $322,462,674
Note: All projections are at the 90-percent confidence level.



Table 3: Recovery status of the fugitive                                                 Population
                                                   Sample Results        Percent
felon overpayments in Table 2                                                             Estimate
Recovered                                               $59,174           19.0%           $47,260,285
Recovery Efforts Underway                              $200,493           64.2%          $160,128,347
Not Recovered (Written Off)                             $52,352           16.8%           $41,812,434
Total (See Table 2)                                    $312,019          100.0%          $249,201,066
Note: All projections are at the 90-percent confidence level.


Table 4: Overpayments in Table 2 that were not                   Number of
                                                                                         Dollars
detected by SSA until our audit                                 Beneficiaries
Sample Results                                                            10                $98,728
Point Estimate                                                         7,987         $78,850,962
Projection Lower Limit                                                 4,364         $19,877,007
Projection Upper Limit                                                13,372        $137,824,916
Note: All projections are at the 90-percent confidence level.



Table 5: Beneficiaries whose ongoing benefits were               Number of
                                                                                         Dollars
withheld because their warrants remained unsatisfied            Beneficiaries
Sample Results                                                            35               $273,689
Point Estimate                                                        27,954        $218,588,020
Projection Lower Limit                                                20,985        $137,381,967
Projection Upper Limit                                                36,274        $299,794,073
Note: All projections are at the 90-percent confidence level.




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)             B-2
Table 6: Beneficiaries who satisfied their warrants
and were again eligible for benefits as of March 2008,
                                                                 Number of
and the amount of Title II benefits they were not                                        Dollars
                                                                Beneficiaries
eligible to receive while their warrants were
unsatisfied
Sample Results                                                            34               $220,729
Point Estimate                                                        27,155          $176,290,472
Projection Lower Limit                                                20,283          $104,577,805
Projection Upper Limit                                                35,394          $248,003,139
Note: All projections are at the 90-percent confidence level.



Table 7: Benefits expected to be saved over the next
12 months by withholding the ongoing benefits to                 Number of
                                                                                         Dollars
fugitive felons who did not satisfy their warrants as           Beneficiaries
of March 2008
Sample Results                                                            14               $112,121
Point Estimate                                                        11,181             $89,547,825
Projection Lower Limit                                                 6,820             $49,022,204
Projection Upper Limit                                                17,225          $130,073,446
Note: All projections are at the 90-percent confidence level.



Table 8: Benefits saved due to incarceration                     Number of
                                                                                         Dollars
following fugitive felon suspension                             Beneficiaries
Sample Results                                                            15               $173,293
Point Estimate                                                        11,980          $138,404,073
Projection Lower Limit                                                 7,453             $65,299,593
Projection Upper Limit                                                18,170          $211,508,554
Note: All projections are at the 90-percent confidence level.

ANALYSIS OF THE FOWLKES RULING

We also identified a separate population to evaluate the impact of the Fowlkes
Acquiescence Ruling on the Title II program. Specifically, we identified 8,980 fugitive
felons with warrants as of June 2007 and who may have resided in the Second Circuit
(Connecticut, New York, and Vermont). 2 We randomly selected 275 records from this
population for further analysis. For each sampled case, we calculated the amount of
Title II funds paid to the beneficiary that he or she would not have been eligible to
receive were it not for the Fowlkes Ruling.




2
  The data we analyzed included records in which the State was not identified. We included these cases
in our population because the fugitive felons may have resided in the Second Circuit.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)             B-3
Table 9: Population and sample size
Population Size                                                                                8,980
Sample Size                                                                                        275



Table 10: Beneficiaries who were eligible for Title II
                                                                 Number of
benefits despite their felony warrants because of the                                    Dollars
                                                                Beneficiaries
Fowlkes Ruling
Sample Results                                                            35               $565,879
Point Estimate                                                         1,143             $18,478,535
Projection Lower Limit                                                   862             $14,100,734
Projection Upper Limit                                                 1,478             $22,856,335
Note: All projections are at the 90-percent confidence level.




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)               B-4
                                                                                     Appendix C

Reasons Why Sample Fugitive Felon Cases
Did Not Result in the Suspension of Title II
Benefits
For 208 of the 275 fugitive felons in our sample, Title II benefit payments were not
stopped under the fugitive felon provisions in section 202(x)(1)(A) of the Social Security
Act. As of March 2008:

       147 individuals were not eligible for Title II benefit payments at the time they had
        unsatisfied felony warrants;
       36 individuals satisfied their warrants before January 2005 (the effective date of
        the Title II fugitive felon nonpayment provision);
       8 individuals were not suspended because the Agency had insufficient warrant
        information;
       7 individuals satisfied their warrants within 30 days of their issuance;
       5 individuals were wanted for misdemeanor offenses only; 1 and
       5 individuals died.




1
 Misdemeanor warrants are screened out as part of the Social Security Administration’s fugitive felon
process. However, these five individuals were included in the initial fugitive felon file received from a
participating State. The records for these individuals were not processed, and the State subsequently
re-sent a new file with only felony and parole or probation violation warrants.


Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)
                                                                               Appendix D

Agency Comments




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)
                                          SOCIAL SECURITY
MEMORANDUM


Date:      June 09, 2008                                                             Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster       /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Title II Benefits to Fugitives” (A-01-07-
           17039)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “TITLE II BENEFITS TO FUGITIVES” (A-01-07-17039)

Thank you for the opportunity to review and provide comments on this draft report.

The report states concerns about nonpayment of: 1) fugitives; and 2) parole and probation
violators, and a later footnote clarifies that "fugitives" refers to both (see page ii and page 2,
footnote 8). Accordingly, please consider retitling the report (e.g., Title II Benefits and Criminal
Law Enforcement) and using the phrase “fugitive felons or parole/probation violators” instead of
“fugitives” in the report. If not, please consider moving footnote 8 to the first footnote position
or to the opening text.

OIG concludes that SSA has enhanced its Title II claims system to identify benefit applicants
who are fugitives or violators before their claims are approved and payments are issued. While it
is true that SSA developed such an identification process, operating instructions to implement the
process were never published.

Upon analysis of the proposed identification process, SSA determined that it does not have the
legal authority to match arrest warrant data with the Title II claims system. The terms of our
matching agreements with the law enforcement agencies that report arrest warrant information
specify that the information can only be matched against those individuals who are already
entitled to benefits. We also determined that we would identify only a limited number of
claimants who have open warrants from this process. The process can identify only those Title II
claimants who had an outstanding warrant during a period of prior Title XVI eligibility or if the
warrant data and the Title II claim are received simultaneously. Considering the lack of
authority for this process and its limited effectiveness, we have decided not to implement the
process.



[In addition to the comments above, SSA also provided technical comments which have
been addressed, where appropriate, in this report.]




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)           D-2
                                                                               Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

   Jeffrey Brown, Audit Manager (617) 565-1814

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

   Frank Salamone, Senior Auditor

   Melinda Tabicas, Senior Auditor

   Kathleen Toli, Auditor

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-17039.




Title II Benefits to Fugitive Felons and Probation or Parole Violators (A-01-07-17039)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitive felons receiving benefit payments from SSA, and provides
technological assistance to investigations.
